     OFFICE OF THE SPECIAL INSPECTOR GENERAL FOR AFGHANISTAN RECONSTRUCTION




 Lessons Learned in Preparing and Conducting Elections
                     in Afghanistan




                                         September 9, 2010


SIGAR Audit 10-16 Governance/Elections
     OFFICE OF THE SPECIAL INSPECTOR GENERAL FOR AFGHANISTAN RECONSTRUCTION


September 9, 2010

The Honorable Hillary Rodham Clinton
U.S. Secretary of State

The Honorable Karl W. Eikenberry
U.S. Ambassador to Afghanistan

The Honorable Rajiv Shah
Administrator
U.S. Agency for International Development

Mr. Earl Gast
USAID Mission Director to Afghanistan

This letter provides information prepared by the Office of the Special Inspector General for Afghanistan
Reconstruction’s (SIGAR) regarding lessons learned in the preparation and conduct of the 2009 election
in Afghanistan. We are providing this letter now, in advance of the September 18, 2010 elections, to
serve as a baseline for observers who will be assessing and commenting on these elections.

Strengthening the electoral system in Afghanistan is a key component of the U.S. government’s
democracy and governance strategy. The United States, in coordination with other international donors,
invested approximately $500 million in 2009 to improve Afghanistan’s electoral capacity and associated
civic participation programs.

The 2009 elections exhibited some of the same difficulties of the first election cycle from 2004 and 2005,
according to USAID. Reports from official election observers, independent election analyses,
independent audits, and participants in conducting the election—including donors, the Afghan
government, and the United Nations—all point to deficiencies that resulted in fraud and weaknesses in
the Afghan electoral process. In assessing these reports, SIGAR identified 16 issues as the most
significant and widely acknowledged problems facing Afghanistan in the preparation and conduct of the
2009 elections. The issues, grouped into two categories, include (1) operational issues that contributed
to vulnerable electoral processes, and (2) long-term issues that require electoral reforms and political
will by the government of Afghanistan.

Operational problems such as inadequate electoral procedures led to widespread fraud in ballot
counting. Lessons learned included identifying polling stations well in advance to ensure sufficient
logistics and security support; controlling printed ballots to prevent fraudulent voting; enabling and
educating candidate agents and election observers; completing electoral activities before sundown due
to security; tallying votes quickly to avoid manipulation; making results forms tamper resistant;
tabulating votes in a transparent manner; and addressing and resolving complaints quickly.




SIGAR Audit-10-16 Governance/Elections                                                              Page i
The Afghan electoral system also suffered from long-term issues that will take years to address. Specific
issues include improving voter registration by developing a reliable list of voters, vetting candidates to
disqualify ineligible candidates, creating independent electoral organizations to provide transparency,
considering changes to the single, non-transferable vote system to provide wider representation, and
reducing the number of elections to lessen the financial burden.

Since the August 2009 election, the United States, in collaboration with other international donors, has
taken steps to act upon the lessons learned from the 2009 elections. Applying these lessons learned and
achieving credible elections in Afghanistan depends not only on the integrity of the election process but
the willingness and ability of the Afghan government to build its electoral capabilities so that democratic
principles and the electoral process are sustained. Building electoral capacity in Afghanistan will require
continued attention to all aspects of the election cycle, including both the immediate implementation of
the electoral process and long-term issues such as creating independent electoral organizations.

To gather information on lessons learned, we reviewed post-2009 reports, interviewed senior U.S.
official and senior diplomats from the international donor community, and attended donor meetings
and weekly U.S. Embassy election working-group meetings. Appendix I contains detailed information
about the lessons learned from the 2009 election. Appendix II contains a list of reports we consulted in
identifying these lessons learned.

The Office of the Special Inspector General for Afghanistan Reconstruction conducted this review under
the authority of Public Law No. 110-181 and the Inspector General Act of 1978, as amended. We
obtained technical comments from the U.S. Embassy and USAID Mission to Afghanistan and
incorporated them in this report as appropriate.




John Brummet
Assistant Inspector General for Audits
Office of the Special Inspector General
   for Afghanistan Reconstruction




Appendices
    Lessons Learned In Preparing and Conducting Elections in Afghanistan
    Reports On the 2009 Afghanistan Elections




SIGAR Audit-10-16 Governance/Elections                                                               Page ii
APPENDIX I: LESSONS LEARNED IN PREPARING AND CONDUCTING ELECTIONS IN
AFGHANISTAN

The United States and other international donors invested heavily in the 2009 election and ancillary
electoral and civic capacity building—almost $500 million in 2009. The investment was intended to
improve the capacity of the Afghan government to conduct elections. The election resulted in the
Electoral Complaints Commission disqualifying 1.2 million presidential ballots, which forced the need for
a run-off election that did not occur because the runner-up candidate withdrew. As the United States
measures the willingness of the Afghan government to conduct elections consistent with international
standards, it is considering the type and extent of assistance it will provide to support the Afghan
electoral system.

This appendix provides information on lessons learned from the conduct of the 2009 Afghan election. To
obtain this information, we reviewed post-2009 election reports prepared by U.S. government agencies,
international donors, the Afghan government, and non-governmental organizations. Appendix II
provides a complete list of these reports. We also interviewed senior representatives from the State
Department, U.S. Agency for International Development (USAID), and the International Security
Assistance Force (ISAF) Afghanistan; senior diplomats from the international donor community; and the
senior leadership of the United Nations (UN) in Afghanistan. We also attended donor meetings, a UN
donor meeting, and weekly U.S. Embassy election working-group meetings. We conducted this review
from January 2010 to August 2010.

Background

On August 20, 2009, the government of the Islamic Republic of Afghanistan conducted an election for
the president and provincial councils. Unlike previous elections in 2004 and 2005, which were
internationally led and managed, the August elections were the first managed by the Independent
Election Commission (IEC), an independent Afghan institution. Although it received extensive support
from the donor community, the IEC was the sole authority in charge of preparing and conducting the
2009 national elections in Afghanistan. For many IEC staff, this was their first substantive experience
conducting an election.

At the request of the Afghan government, the United Nations Security Council directed the United
Nations Assistance Mission in Afghanistan (UNAMA) and the Special Representative of the Secretary-
General to lead international civilian efforts to support the elections, by providing technical assistance
and donor coordination and by channeling existing and additional funds to support the process.
UNAMA executed this responsibility through United Nations Development Programme’s Enhancing
Legal and Electoral Capacity for Tomorrow (UNDP/ELECT) program, which the UN established in October
2006 to provide technical assistance and capacity building to the IEC for all electoral activities.
UNDP/ELECT also supported the Electoral Complaints Commission (ECC), an Afghan body established to
adjudicate challenges and complaints related to the electoral process.

The Afghanistan National Security Forces, comprised of the army and the police, had primary
responsibility for election security. The police provided a visible presence at the polling stations, while
the Afghan army provided first-line support. ISAF’s goal was to be as unobservable as possible, providing
rapid-reaction air and ground support only when needed. In addition, ISAF assisted the IEC in the
delivery and recovery of election materials by providing transportation but had no responsibility for the
election’s integrity or accountability. IEC officials retained custody of all electoral materials.



SIGAR Audit-10-16 Governance/Elections                                                              Page 1
The international community invested almost $500 million to support the election in Afghanistan, with
more than half of that amount donated by the United States. Of the $331 million budget for the
UNDP/ELECT project, $229 million primarily supported the IEC, the Electoral Complaints Commission,
and Media Commission; technical support; and the costs of a possible run-off in 2009; as well as broader
stakeholder support for 2009 and 2010 elections. Before the elections, $102 million supported voter
registration. The remainder, $157.4 million, supported ancillary electoral activities such as civic
education, public outreach, and media development.

A set of international standards that “stem from political rights and fundamental freedoms that are
enshrined in universal and regional instruments” guide the development of electoral capacity. 1 These
standards include citizen rights to participate in government and public affairs through periodic
elections, the right to universal suffrage, the right to stand for election, the right to vote, and the right to
a secret ballot.

To achieve these standards, the Handbook for European Union Election Observation identifies best
practices considered essential to a genuine and democratic electoral process. Key examples include:

       •   Transparency in the electoral process;
       •   An election administration that acts in an effective, impartial, independent, and accountable
           manner;
       •   Equal access for candidates and political parties to state resources;
       •   Equal access for candidates and political parties to, and balanced coverage by, any state or
           publicly funded media;
       •   An electorate informed of its rights through civic and voter education programs; and
       •   A peaceful atmosphere—free from violence, intimidation, or reprisals—for candidates and
           parties to campaign and for the electorate to vote.

Table 1 illustrates the major events of the 2009 election.


    Table 1: 2009 Afghan Election Timeline
    Date (2009)             Event                        Description of Activities
    March 4                 Election date set            The IEC affirmed the election date of August 20, 2009.
    Early March             Voter registration           Voter registration was conducted from October 2008 to
                            concluded                    March 2009, resulting in 4.5 million new voters.
    April 24 – to May 8     Candidate filing             Candidates filed to run in the election. A total of 44
                                                         registered to run for President, with 32 standing for election
                                                         on election day. Approximately 3,200 people registered as
                                                         candidates for 420 provincial seats. Two women campaigned
                                                         for president, and 331 women for the Provincial Council.
    April 26                ECC meets                    The ECC commissioners meet for the first time.

    May 16 – 21             Candidate list               IEC published a preliminary list of candidates.


1
    European Commission, Handbook for European Union Election Observation, Second Edition, 2008.



SIGAR Audit-10-16 Governance/Elections                                                                            Page 2
 May 16 – June 8          Candidate eligibility          Afghans filed complaints with the ECC challenging the
                          challenges                     eligibility of candidates.
 June 12                  Final candidate list           IEC published the final list of candidates, following ECC
                                                         decisions.
 June 16 – August 18      Candidates campaign            Candidates mounted a campaign for election.
 August 20                Election Day                   Voting on election day was relatively orderly, although
                                                         27 Afghans, mostly security forces, were killed in election
                                                         day violence. Voter turnout was reported at about
                                                         35 percent. Turnout was especially low in contested areas in
                                                         Helmand Province. All major participants alleged that fraud
                                                         occurred.
 September 8              ECC orders recount             The ECC issued an order for a recount of 10 percent of
                                                         polling stations--which accounted for 25 percent of the
                                                         vote--in cases where the total number of votes exceeded
                                                         600 (each polling station’s maximum) or where any
                                                         candidate received 95 percent or more of the total vote. In
                                                         practice, the recount consisted of a sampling of actual votes.
 September 16             Preliminary presidential       The IEC published its preliminary presidential results, with
                          results                        President Karzai receiving 54.6 percent and Dr. Abdullah
                                                         receiving 27.7 percent.
 September 28             Partial provincial council     The IEC announced partial provincial council results.
                          results
 September 29             UNAMA deputy                   United Nations Secretary General Ban Ki Moon dismissed
                          dismissed                      UNAMA deputy, Ambassador Peter Galbraith, who had
                                                         clashed with UNAMA head, Ambassador Kai Eide, over how
                                                         forcefully to press President Karzai about ballot fraud.
 October 5                IEC audit of ballot boxes      IEC began an audit of suspicious ballot boxes.
 October 19               ECC released its final         The ECC received 2,854 complaints, 604 of which had the
                          decisions about the            potential to have a material effect on the outcome of the
                          presidential race              election. As a result, 210 polling stations were annulled,
                                                         135 fell under the audit, and 12 were required to have their
                                                         results corrected.
 October 20               ICC announces final            The ECC determined that about 1 million votes for President
                          election results after         Karzai were fraudulent, as were about 200,000 votes for
                          adjusting for fraudulent       Dr. Abdullah. Accordingly, the IEC announced the final
                          ballots                        results of the election, with Karzai receiving 49.67 percent,
                                                         and Abdullah receiving 30.59 percent. (The ECC calculated
                                                         that Karzai had about 48 percent of the vote.) Because
                                                         neither candidate reached the threshold margin of 50
                                                         percent, the IEC scheduled a runoff election for November 7,
                                                         2009.
 November 1               Abdullah withdraws             After protracted political negotiations and campaigning,
                                                         Dr. Abdullah withdrew from the runoff election.
 November 2               Karzai declared winner         Canceling the runoff election, the IEC declared President
                                                         Karzai the winner of the presidential election.
 Source: SIGAR Audit-09-6, SIGAR Audit-10-1, and reports from the Congressional Research Service, Organization for Security
 and Cooperation in Europe, and European Union.




SIGAR Audit-10-16 Governance/Elections                                                                               Page 3
Summary of Lessons Learned

The United States and international donors supporting the 2009 Afghan elections have identified a
number of issues affecting Afghanistan’s 2009 elections. Reports from official election observers;
independent election analyses; independent audits; and participants in conducting the election—
including donors, the Afghan government, ISAF, and the UN—all point to deficiencies that resulted in
fraud and weaknesses in the Afghan electoral process. See appendix II for a complete list of these
reports. 2 Table 2 highlights the most significant and widely acknowledged issues we identified in our
assessment of these studies, which were confirmed by interviews with representatives from U.S.
donors, international donors, and ISAF.


    Table 2: Lessons Learned Regarding the Afghan Electoral Process
    Category                Specific Issues
                                 •    Identifying polling stations
    Operational
                                 •    Controlling printed ballots
                                 •    Enabling candidate agents and election observers
                                 •    Protecting ballot chain of custody
                                 •    Voting more quickly
                                 •    Tallying votes more quickly and transparently
                                 •    Making results forms tamper-resistant
                                 •    Tabulating votes
                                 •    Lodging complaints
                                 •    Improving coordination among parties
                                 •    Improving voter registration
    Long-Term
                                 •    Vetting candidates
                                 •    Creating independent electoral organizations
                                 •    Changing the single non-transferable vote
                                 •    Reducing the number of elections
                                 •    Preparing for district and municipal elections
    Source: SIGAR analysis of reports on 2009 election, listed in appendix II.



Lessons Learned Regarding Operational Issues in the Electoral Process

In the 2009 elections, operational problems such as inadequate electoral procedures led to widespread
fraud in ballot counting.

       •    Identifying polling stations. Election officials should identify polling stations well in advance of
            an election. ISAF officials, who have responsibility for planning electoral security, suggest that 90
            days notice would enable officials to inspect each polling station, ensure adequate delivery of
            materials, and provide security and electoral accountability. In 2009, the IEC waited until just

2
  We reviewed 36 reports written after the election: 11 by official election observers, 10 by official organizations, 13 by
independent election analysts, and 2 by audit organizations.



SIGAR Audit-10-16 Governance/Elections                                                                                        Page 4
        before the election to create a final list of polling stations, and in many cases, the IEC did not
        provide adequate information about the location of the polling stations or the number of voters
        expected to vote at these stations. As a result, ISAF and Afghan security forces had difficulty
        providing for logistics and security in some locations.
    •   Controlling printed ballots. Election officials should control printed ballots to prevent
        fraudulent ballots from being counted. In 2009, the IEC’s procedures for tracking and
        controlling access to ballots were weak and allowed for a significant number of fraudulent
        ballots to be submitted. For example, the IEC, with assistance from UNDP/ELECT, established
        ballots with stubs and a serial number, but a corresponding number to identify the lot was not
        printed on the ballot. Once ballots were torn from the stubs and handed over to the voter at
        the polling station, there was no longer a control for tracking the ballots back to the stubs.
        Matching serial numbers or other means to associate the ballot to the stub is an effective means
        for preventing the introduction of fraudulent ballots into the system.
    •   Enabling candidate agents and election observers. Candidate agents and independent election
        observers deter election fraud by observing and reporting on the voting process. However,
        according to a USAID election expert, the IEC, UNDP/ELECT, and non-governmental
        organizations contracted to support Afghan candidates did not invest enough time and
        resources to educate candidates about the need to maintain agents in every polling station.
        Further, the IEC’s cumbersome approval process also limited the number of candidate agents
        and election observers deployed in 2009.
    •   Protecting ballot chain of custody. In retrieving ballots, receipts, and other sensitive materials
        from polling stations, chain of custody and good internal controls should be established to
        prevent tampering with the polling results. In 2009, the IEC had little capacity or procedures for
        transporting ballots to Kabul, where they were counted. UNDP/ELECT assumed most of the
        responsibility for logistics, with little participation by the IEC. However, according to a USAID
        official, UNDP/ELECT’s efforts were understaffed, its procedures were weak, and few
        accommodations were made for outside observers to maintain the integrity of the process.
    •   Voting more quickly. Finishing electoral activities at polling stations before dark is important in
        Afghan culture because most female observers, agents, and poll workers will go home at twilight
        for safety reasons. The IEC’s electoral procedures for the 2009 elections were so cumbersome
        that, in many locations, it was impossible to complete all voters at polling stations during
        daylight hours. The IEC extended voting by 1 hour but announced its decision at 4:10 p.m.—10
        minutes after the polls were scheduled to close. This last-minute instruction, which was not
        applied uniformly, caused problems in some stations where ballot boxes already had been
        opened and counting had begun. Measures such as increasing the number of privacy screens
        from four to six would increase the percentage of people who could vote by 4 p.m. from 50 to
        75 percent, according to a USAID electoral expert.
    •   Tallying votes more quickly and transparently. Once polling stations close, votes should be
        tallied quickly and transparently. In 2009, however, the IEC’s vote tallying procedures led to
        many examples of manipulated vote tallies. According to a USAID election official, using pre-
        printed tally sheets that contained candidate names and a set of numbers up to the number of
        eligible voters at the polling station could deter fraud. Finishing voting before twilight would
        enable more election observers and candidate representatives to oversee the process. New
        procedures such as counting, classifying, and reconciling votes using a tally sheet could make the




SIGAR Audit-10-16 Governance/Elections                                                              Page 5
            process three times as fast as the system the IEC used in 2009, according to USAID’s electoral
            expert.
       •    Making results forms tamper resistant. Good electoral procedures should prevent tampering
            with ballot results from polling stations. In 2009, however, the ECC’s audit of ballot boxes
            showed major discrepancies between the carbon copies of the results forms inside the ballot
            boxes and the results the IEC published by polling station. The ECC found that, in some cases,
            election workers added an extra digit to the end of a number, turning 100 votes, for example,
            into 1,000 votes. According to the USAID electoral expert, two widely used practices could
            mitigate this type of fraud. Writing out numbers using letters (for example, “two hundred and
            fifty-five” rather than 255) would make this type of fraud more difficult. Further, sealing the
            results column with transparent tape makes it almost impossible to modify the results.
       •    Tabulating votes. The voting process should be transparent, both to prevent authorities from
            manipulating vote tallies and to assure voters that the results reflect their will. Ballots were
            counted at polling stations. Election officials then placed all documentation in tamper-evident
            bags for transport to the Kabul tally center. The Organization for Security and Cooperation in
            Europe characterized the vote tallying as well organized but noted shortcomings. A USAID
            election official cited the following vote tabulation problems:
                  UNDP did not convert the election data center to a tally center until 10 days before the
                   August 20, 2009, election, which precluded the operators of the new tabulation
                   software from receiving training.
                  UNDP did not allow anyone to witness the conversion, going so far as to expel an NGO
                   consultant assigned to the data center during the conversion.
                  UNDP did not test or evaluate the new software before the election.
                  UNDP did not allow other stakeholders and independent observers to analyze the
                   reliability of the tabulation software.
                  In tabulating the vote, IEC officials did not reconcile the total number of voters on the
                   results form with the number of ballots cast.

       •    Lodging complaints. Electoral complaints should be resolved quickly to minimize the time
            between voting and the announcement of voting results. In 2009, the ECC received 2,584
            complaints regarding irregularities during polling and counting, based on the preliminary results.
            More than half of the complaints were lodged within 1 week of election day. Overall, the ECC
            invalidated a relatively small number of votes—just 1 to 2 percent of the total invalidated
            votes—and it did not, except on rare occasions, use its prerogatives to investigate suspicious
            votes. The ECC lacked the institutional capacity to conduct its work, according to a USAID official.
            In September 2009, SIGAR reported on these challenges in sustaining Afghan electoral capacity,
            recommending the need to develop and retain qualified staff from one election cycle to the
            next. 3 However, the ECC currently remains a temporary organization. Although the European
            Union Election Observation Mission recommended that the ECC become a permanent body and
            receive more comprehensive support for the 2010 election, the Afghanistan government has to
            reconstitute the ECC for each election, according to current electoral laws.


3
    SIGAR Audit-09-6, Elections, Strategy and Resources Needed to Sustain Afghan Electoral Capacity, September 22, 2009.




SIGAR Audit-10-16 Governance/Elections                                                                                     Page 6
    •   Improving coordination among parties. ISAF identified the need for a better organizational
        framework for cooperative planning among all parties. Such a framework could be improved by
        establishing a combined joint interagency steering committee and working groups; defining
        common timelines and milestones to harmonize the agencies’ efforts to improve interagency
        communication, collaboration, and coordination; and rehearsing operations earlier and more
        thoroughly than in 2009.

Afghan Electoral System Issues Has Long-Term Problems

The Afghan electoral system has long-term problems that may take several years to address. These
include voter registration, vetting candidates, the independence of the IEC, and several legal issues that
present challenges to the integrity and sustainability of the electoral process.

    •   Improving voter registration. According to the EU Election Observation Mission, voter
        registration establishes the eligibility of individuals to cast a ballot, allows the identification of
        voters on polling day, and is a significant safeguard against multiple voting and impersonation.
        The 2009 presidential and provincial council elections were carried out without a consolidated
        and accurate voter register, which weakened the integrity of the process.
        According to several reports, the IEC could not develop a reliable voters list or estimate the
        number of eligible voters for the 2009 election, a process that depends on a census of the
        population to provide an accurate estimate of the number of eligible voters. According to an
        European Union Electoral Advisor, “An all-inclusive, clean, and accurate voter register is
        fundamental to the integrity of the suffrage and is pivotal in the creation of a credible electoral
        system.” Three essential elements of a voter registration system are:
             Sufficient updates to allow for the inclusion of newly eligible voters and the removal of
              recently deceased persons;
             Computerization to avoid duplicate entries; and
             Public availability of the voter register to allow voters to confirm their inclusion and the
              register’s accuracy before it is finalized.

        None of these conditions was met in the 2009 elections. Although two major voter registration
        projects have been conducted since 2003, they have been fraught with problems. For example,
        in the 2003-2005 voter registration drive, voters were able to register multiple times at different
        registration stations. In addition, many registrations did not include the registrant’s home
        address, rendering it impossible to draw up voting lists for each polling station. The second voter
        registration drive, conducted by UNDP and the IEC from 2008 to 2009, added 4.5 million voters
        for a total of 17.3 million registrants. The projects together cost $102.2 million, with the United
        States contributing $65 million of this amount and the remainder funded by international
        donors. Although sophisticated biometric technology was used, deficient policies and oversight
        hampered the registration process. For example, registration workers used different fingers for
        fingerprinting, making it impossible to crosscheck for duplicate registrations. Male family
        members could register female relatives by proxy using their own fingerprints. Moreover, much
        of the data captured in the field could not be converted to digital use.
        As a result, more voter registration cards were in circulation at the time of the election than the
        number of eligible voters. In calculating the expected turnout for the 2009 election, the IEC
        estimated there were 15 million eligible voters on the register, not 17.3 million. USAID’s


SIGAR Audit-10-16 Governance/Elections                                                                   Page 7
          electoral expert estimated the total voter registration at about 14 million people, based on a
          Central Intelligence Agency population estimate of 28 million people and a median age of 17.6
          years. Seven provinces showed more registered voters than the total population of the province,
          as estimated by the Afghanistan’s Central Statistics Office.
     •    Vetting candidates. Although both the constitution and electoral law provide a legal basis for
          candidate vetting in Afghanistan, 4 the vetting process was insufficient to disqualify ineligible
          candidates. Under electoral law, the IEC verifies and approves the eligibility of candidates;
          however, the IEC did not participate in the vetting process for the 2009 election. Instead, it
          required candidates to submit sworn eligibility statements, effectively moving the responsibility
          for candidate vetting to the ECC, which was responsible for resolving candidacy challenges. The
          ECC was established late in the electoral process, however, and candidate vetting required in-
          depth interviews. The European Union Election Observation Mission considered the database
          and vetting process—compiled from the information provided by Afghan government ministries,
          the UN, and ISAF—incomplete and flawed. The ECC received 302 challenges to nominations and
          excluded 56 nominees, 54 of them for having ties to illegal armed groups.
          In addition, according to the European Union Election Observation Mission, 5 the candidate
          vetting process suffered from a lack of political will and support. International parties failed to
          provide information on people linked to illegal armed groups, which in fact had not been legally
          defined. The Afghan government ministries also failed to provide information on notorious
          warlords. The process was not transparent and was subject to behind-the-scenes influence.
          According to the European Union Election Observation Mission, both of Afghanistan’s vice
          presidents and some elected provincial council members were elected to government positions
          despite strong allegations of their involvement with illegal armed groups.
          According to a U.S. embassy official, the United States continues to work with the IEC to
          disqualify winning candidates who have past criminal behavior. The official added that
          Afghanistan’s elections cannot be free and fair if candidates standing for election have criminal,
          corrupt, or insurgent backgrounds.
     •    Creating independent electoral organizations. The UN’s appointment of a majority of the EEC’s
          commissioners in 2009 was meant to ensure its independence. However, this became a
          contentious issue when President Karzai issued a decree allowing the President to appoint every
          ECC commissioner—in consultation with the speaker of both houses and the head of the
          Supreme Court—and the international community wanted two representatives who could veto
          any ECC decision.
          According to numerous election observers, the IEC did not have elements of an independent,
          impartial, and transparent organization. The IEC lacked independence primarily because its
          commissioners were presidential appointments. Established under the constitution, the IEC
          consists of seven commissioners, including a chairperson and a deputy chairperson, all
          appointed by presidential decree. According to a senior ISAF official, the IEC failed to provide
          transparency to election observers and candidates, especially when votes were counted. It also

4
 The Constitution of Afghanistan, Articles 62 and 85, prohibits presidential and national assembly candidates who have been
convicted of crimes against humanity and other criminal acts. The national electoral law, which applies to presidential,
parliamentary, provincial, and district elections, also bans candidates if they use or threaten force, incite ethnic or other forms
of discrimination, have non-official military forces, or receive funds from foreign or internal illegal sources, among other things.
5
 European Union Election Observation Mission to the Islamic Republic of Afghanistan, Final Report on the Presidential and
Provincial Council Elections, August 20, 2009.



SIGAR Audit-10-16 Governance/Elections                                                                                      Page 8
        failed to publish an accurate list of polling stations, depriving voters and observers of vital
        information. Moreover, it failed to maintain chain-of-custody of electoral materials, which led to
        serious fraud, including “stuffing of ballot boxes” and “ghost” polling stations (where ballots
        were recovered from polling stations that never opened).
        According to the European Union Election Observer Report, on September 8, 2009, the ECC
        ordered the IEC to conduct an audit and recount of polling station results, after citing evidence
        of considerable fraud. Instead, the IEC announced preliminary presidential results on September
        16, 2009, attributing 54.6 percent of the valid votes to Hamid Karzai and 27.75 percent to
        Abdullah Abdullah. Following protracted debates and confusion, the IEC started an audit on
        October 5, 2009, of a sample of suspicious ballot boxes under ECC supervision. Because of the
        audit, huge numbers of votes were invalidated. On October 19, 2009, the IEC, by announcing the
        final presidential results, declared that there would be a runoff ballot scheduled by November 7,
        2009, between Hamid Karzai and Abdullah Abdullah, since neither of the presidential candidates
        had obtained more than 50 percent of the valid votes.
        In early 2010, the IEC identified 6,000 staff, who were allegedly involved in fraud or misconduct
        in the 2009 elections. A committee at IEC headquarters crosschecks a list of polling staff to
        ensure that the 6,000 are not re-recruited.
    •   Changing the single non-transferable vote. The Afghan electoral system uses the single non-
        transferable vote system for elections to all offices except the President, which requires a run-
        off if a majority vote is not received. Under this system, each voter casts one vote for a
        candidate. The candidate with the highest total vote is elected. In a multi-seat constituency—
        with three open seats, for example—the three candidates receiving the largest numbers of
        votes would win office.
        The system has several advantages, which include providing for proportional representation in
        constituencies, enabling the representation of minorities, simplifying the voting process for the
        electorate, and making it easy to calculate vote totals. Election observers noted, however, that
        the single non-transferable vote system can hamper the development of political parties and
        weaken the operation of elected bodies by resulting in a majority of votes being cast for
        candidates who are not elected. For example, if enough candidates compete for a position,
        someone can win with only a small number of votes, which could lead to vote rigging and
        election fraud. Ballots can also be unwieldy. For example, in Kabul, voters had a choice of 520
        provincial council candidates printed on a 9-page ballot.
    •   Reducing the number of elections. The conduct of national elections places a large burden on
        the Afghan government and the international community. The current electoral calendar would
        result in no fewer than 14 elections (and 7 different types of elections) over the next 17 years.
        Under the Afghan constitution, presidential and parliamentary elections are held every 5 years;
        provincial council elections every 4 years; and district and village assembly elections every 3
        years. The constitution also calls for elections for mayors and other municipal officials, with the
        frequency of these elections determined by other laws.
        The Organization for Security and Cooperation in Europe reports that such a schedule of
        elections is unsustainable. It is demanding and expensive to administer this number of elections,
        and an active insurgency will require additional security. The Afghan and NATO security forces
        would be needed to provide security for the election throughout the country. Moreover, the
        Afghan government is still building the capacity to conduct elections. The government does not




SIGAR Audit-10-16 Governance/Elections                                                               Page 9
        have the resources to pay for these elections, and it is unlikely the donor community would
        sustain such an intensive electoral cycle.
    •   Preparing for district and municipal elections. Only parliamentary elections are scheduled for
        the September 18, 2010, election. In his inaugural speech on November 19, 2009, President
        Karzai stated that district and mayoral elections would be held. According to UNDP, local
        elections have proven impossible to organize thus far, largely due to boundary delimitation
        difficulties. Although district council elections were envisaged to take place in 2010, this is very
        unlikely due in part to lack of clarity on the number and boundaries of districts and villages.
        According to the Organization for Security and Cooperation in Europe report, although some
        national and international stakeholders regard the boundaries of the existing 364 districts (plus
        34 provincial capitals) as an adequate basis for holding district council elections in 2010, the
        Independent Directorate for Local Governance stated that complete delimitation of villages
        must be undertaken before village council elections can take place. Within current timelines, no
        delimitation exercise seems possible before the 2010 elections.


Since the August 2009 election, the United States, in collaboration with other international donors, has
taken steps to act upon the lessons learned from the 2009 elections. Applying these lessons learned and
achieving the objective of credible elections depends on the integrity of the election process and the
willingness and ability of the Afghan government to build electoral capabilities so that democratic
principles and the electoral process are sustained. Building electoral capacity in Afghanistan will require
attention to all aspects of the election cycle, including developing the legal framework; planning and
implementing operations; training and educating staff; registering voters; developing a candidate
nomination process; improving the electoral campaign and election day voting operations; verifying
results; and improving post-election operations.




SIGAR Audit-10-16 Governance/Elections                                                                Page 10
APPENDIX II: REPORTS ON THE 2009 AFGHANISTAN ELECTIONS



Official Election Observer Reports

The Asian Network for Free Elections (ANFREL Foundation)

    •   Election Day Report: Violence, intimidation fails to disrupt the spirit of democracy in Afghanistan
        Elections, 2009
    •   Report of the International Election Observation Mission. Upholding Democracy through Ballots
        Presidential & Provincial Council Elections, Afghanistan, 2009
    •   Exploratory (Pre-Election Assessment) Mission Report – Afghanistan Presidential and Provincial
        Council Elections, 2009
    •   Election Observation Mission Recommendations

European Union Election Observation Mission

    •   Preliminary Statement, August 22, 2009
    •   Islamic Republic of Afghanistan Final Report, Presidential and Provincial Council Elections,
        August 20, 2009

Democracy International

    •   International Election Observation Mission to Afghanistan Legislative Elections 2010, Testimony
        of Principal Glenn Cowan before the U.S. House of Representatives Subcommittee on the
        Middle East and South Asia, October 2, 2009

Free and Fair Elections Foundation of Afghanistan (FEFA)

    •   Summary: Campaign Violations Report, June 16 – July 16, 2009

Japanese Electoral Observation Mission

    •   The Report of the Japanese Electoral Observation Mission for the Afghanistan Presidential and
        Provincial Elections, August 23, 2009

National Democratic Institute

    •   NDI Expresses Concern about Afghanistan Election Fraud Complaints, September 9, 2009
    •   Preliminary Statement of the NDI Election Observer Delegation to Afghanistan’s 2009
        Presidential and Provincial Council Elections, August 22, 2009




SIGAR Audit-10-16 Governance/Elections                                                             Page 11
Other Official Statements and Observations

Afghanistan Independent Human Rights Commission - United Nations Assistance Mission in Afghanistan
(AIHRC-UNAMA)

    •   Joint Monitoring of Political Rights (Presidential and Provincial Council Elections) First Report,
        April 25 – June 12, 2009
    •   Joint Monitoring of Political Rights (Presidential and Provincial Council Elections) Second Report,
        June 16 – August 1, 2009
    •   Joint Monitoring of Political Rights (Presidential and Provincial Council Elections) Third Report,
        August 1 – October 5, 2009

NATO

    •   Afghanistan Report, 2009

Organization for Security and Co-operation in Europe/Office for Democratic Institutions and Human
Rights (OSCE/ODIHR) Election Support Team

    •   Islamic Republic of Afghanistan Presidential and Provincial Council Elections, August 20, 2009

United Nations

    •   The Situation in Afghanistan and Its Implications for International Peace and Security, Report of
        The Secretary-General, September 22, 2009
    •   Statement of Special Representative of The Secretary-General for Afghanistan Kai Eide, UN
        Security Council, September 29, 2009
    •   The Situation in Afghanistan and Its Implications for International Peace and Security, Report of
        the Secretary-General, December 28, 2009
    •   Statement of Special Representative of the Secretary-General for Afghanistan Kai Eide, to the
        Security Council, January 6, 2010
    •   United Nations Development Programme Afghanistan. Enhancing Legal and Electoral Capacity
        for Tomorrow (ELECT), 2nd Quarter Project Progress Report, 2009



Independent Election Analyses

Afghan Analysts Network (AAN)

    •   Finishing the Unfinished Election (1): Helmand, Khost and Farah, Martine van Bijlert, November
        12, 2009
    •   Finishing the Unfinished Election (2): Panjshir and Kapisa, Martine van Bijlert, November 12,
        2009




SIGAR Audit-10-16 Governance/Elections                                                               Page 12
    •   What the Preliminary Results Tell Us (3): Logar, Baghlan and Uruzgan, Martine van Bijlert,
        October 16, 2009
    •   What the Preliminary Results Tell Us (1): Kabul Provincial Council, Martine van Bijlert, October 9,
        2009
    •   What the Preliminary Results Tell Us (2): Nimruz Provincial Council, Martine van Bijlert, October
        9, 2009
    •   Polling Day Fraud and the Afghan Elections, Martine Van Biljert, September 3, 2009
    •   How to Win an Afghan Election: Perceptions and Practices, Martine Van Biljert, August 2009

Afghanistan Research and Evaluation Unit (AREU)

    •   Losing Legitimacy? Some Afghan Views on the Government, the International Community, and
        the 2009 Elections, November 2009
    •   Patronage, Posturing, Duty, Demographics – Why Afghans Voted in 2009, AREU Post-elections
        Brief by Noah Coburn and Anna Larson, August 2009

Congressional Research Service

    •   Afghanistan: Politics, Elections, and Government Performance, Kenneth Katzman, Specialist in
        Middle Eastern Affairs, January 11, 2010

International Crisis Group (ICG)

    •   Afghanistan: Elections and the Crisis of Governance, Asia Briefing Number 96, November 25,
        2009
    •   Afghanistan’s Election Challenges, Asia Report Number 171, June 24, 2009



Election-Related Audits

Special Inspector General for Afghanistan Reconstruction (SIGAR)

    •   Strategy and Resources Needed to Sustain Afghan Electoral Capacity, SIGAR Audit 09-6,
        September 22, 2009
    •   Barriers to Greater Participation by Women in Afghan Elections, SIGAR Audit 10-1, October 28,
        2009.

United Nations Development Programme (UNDP)

    •   Special Audit of UNDP Country Office in Afghanistan Projects Funded by United States Agency
        for International Development (USAID), United Nations Development Programme, Office of
        Audit and Investigations, Regional Audit Centre for Asia and the Pacific, Draft Report No.645,
        September 4, 2009




SIGAR Audit-10-16 Governance/Elections                                                             Page 13
                  (This report was conducted under the audit project code SIGAR-006).




SIGAR Audit-10-16 Governance/Elections                                                  Page 14
SIGAR’s Mission               The mission of the Special Inspector General for
                              Afghanistan Reconstruction is to enhance oversight of
                              programs for the reconstruction of Afghanistan by
                              conducting independent and objective audits, inspections,
                              and investigations on the use of taxpayer dollars and
                              related funds. SIGAR works to provide accurate and
                              balanced information, evaluations, analysis, and
                              recommendations to help the U.S. Congress, U.S. agencies,
                              and other decision-makers to make informed oversight,
                              policy, and funding decisions to:
                                 •   improve effectiveness of the overall reconstruction
                                     strategy and its component programs;
                                 •   improve management and accountability over funds
                                     administered by U.S. and Afghan agencies and their
                                     contractors;
                                 •   improve contracting and contract management
                                     processes;
                                 •   prevent fraud, waste, and abuse; and
                                 •   advance U.S. interests in reconstructing
                                     Afghanistan.

Obtaining Copies of SIGAR     To obtain copies of SIGAR documents at no cost, go to
Reports and Testimonies       SIGAR’s Web site (www.sigar.mil). SIGAR posts all
                              released reports, testimonies, and correspondence on its
                              Web site.

To Report Fraud, Waste, and   To help prevent fraud, waste, and abuse by reporting
Abuse in Afghanistan          allegations of fraud, waste, abuse, mismanagement, and
Reconstruction Programs       reprisal contact SIGAR’s hotline:
                                 •   Web: www.sigar.mil/fraud
                                 •   Email: hotline@sigar.mil
                                 •   Phone Afghanistan: +93 (0) 700-10-7300
                                 •   Phone DSN Afghanistan 318-237-2575
                                 •   Phone International: +1-866-329-8893
                                 •   Phone DSN International: 312-664-0378
                                 •   U.S. fax: +1-703-604-0983

Public Affairs                Public Affairs Officer
                                 •   Phone: 703-602-8742
                                 •   Email: PublicAffairs@sigar.mil
                                 •   Mail: SIGAR Public Affairs
                                     400 Army Navy Drive
                                     Arlington, VA 22202
